OIG Investigative Reports Press Release New York NY., June 26 2014 - New York City Woman Pleads Guilty In Manhattan Federal Court To Fraud In Connection With Federal Financial Aid To Attend Online State College
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
SOUTHERN DISTRICT OF NEW YORK
PRESS RELEASES
New York City Woman Pleads Guilty In Manhattan Federal Court To Fraud In Connection With Federal Financial Aid To Attend Online State College
FOR IMMEDIATE RELEASE
Thursday, June 26, 2014
Preet Bharara, the United States Attorney for the Southern District of New York, announced that STEPHANIE BROWN pled guilty today to engaging in fraud in connection with federal financial aid to attend an online state college. BROWN pled guilty in Manhattan federal court before U.S. Magistrate Judge James C. Francis IV and is scheduled to be sentenced on October 8, 2014, at 10:00 a.m.
According to Information, documents filed in the case, and statements made today in court:
In 2011, BROWN forged documents, made false statements, and submitted false and fraudulent documents to the United States Department of Education (“Department of Education”) in order to obtain federal financial aid for prospective students of a State of New York online college. As a result of BROWN’s fraud, the Department of Education provided federal financial aid to individuals who otherwise would not have qualified for such aid. As part of her plea agreement with the Government, BROWN agreed to make restitution in the amount of $117,840.
*                      *                      *
BROWN, 53, of Bronx, New York, is charged with one count of federal financial aid fraud. She faces a maximum of one year in prison; one year of supervised release; and a $25 special assessment. The statutory maximum sentence is prescribed by Congress and is provided here for informational purposes only, as any sentencing of the defendant would be determined by the judge. In addition to the prison sentence, BROWN has agreed to restitution in the amount of $117,840.
Mr. Bharara praised the investigative work of the Department of Education’s Office of the Inspector General.
This case is being prosecuted by the Office’s Public Corruption Unit. Assistant United States Attorney Carrie H. Cohen is in charge of the prosecution.
14-188
U.S. v. Stephanie Brown Information  (PDF)
Top
Printable view
Last Modified: 06/30/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov